Case No. _____________

In The
Supreme Court of the United States

DERRICK KENNEDY CRUMPTON,
Petitioner,
v.

UNITED STATES OF AMERICA
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Barry J. McWhirter
McWhirter Law Firm, PLLC
80 Monroe Ave. Ste. L7
Memphis, TN 38103
(901) 522-9055
CJA Appointed Counsel for Derrick Kennedy Crumpton

1
1

2

EXHIBIT A

3

Case 2:16-cr-20081-JTF Document 55 Filed 05/05/16 Page 1 of 1

PageID 125

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE

5
6
7

UNITED STATES OF AMERICA,
8
vs
9
10
11
12

Case No.

DERRICK KENNEDY CRUMPTON,

2:16-CR-20081-2-JTF-cgc

ORDER APPOINTING COUNSEL
PURSUANT TO THE CRIMINAL
JUSTICE ACT

13
14
15
16
17
18
19
20

This Court has determined that the above-named defendant is financially unable to
obtain adequate representation in the above-styled case, and is otherwise qualified for appointment
of counsel. Accordingly, the Court makes the following appointment pursuant to the Criminal
Justice Act (18 U.S.C. ยง 3006A):
Attorney Barry McWhirter, who is a member of the Criminal Justice Act Panel for
the Western District of Tennessee, is appointed as counsel for the defendant.
DONE and ORDERED May 04, 2016.

21

s/ Diane K. Vescovo
UNITED STATES MAGISTRATE JUDGE

22
23
24
25
26
27
28

1

4

Case: 19-5325

Document: 1

Filed: 04/04/2019

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: April 04, 2019

Mr. Barry J. McWhirter
Law Office
80 Monroe Avenue
Suite L7
Memphis, TN 38103
Re: Case No. 19-5325, USA v. Derrick Crumpton
Originating Case No. : 2:16-cr-20081-2
Dear Counsel,
This appeal has been docketed as case number 19-5325 with the caption that is enclosed on a
separate page.
As defendant's trial counsel, your appointment under the Criminal Justice Act is extended
automatically pursuant to Sixth Circuit Rule 12(c)(2). This letter serves as your authorization
to order any transcript which you deem necessary for the appeal. Even if the defendant filed
the notice of appeal, Sixth Circuit Rule 12(c)(1) requires that counsel continue representation on
appeal until specifically relieved by this Court.
Before preparing any documents to be filed, counsel are strongly encouraged to read the Sixth
Circuit Rules at www.ca6.uscourts.gov. If you have not established a PACER account and
registered with this court as an ECF filer, you should do so immediately. Your password for
district court filings will not work in the appellate ECF system.
At this stage of the appeal, the following forms should be downloaded from the web site and
filed with the Clerk's office by April 18, 2019. Additionally, the transcript order must be
completed by that date.
NOTE: Effective July 18, 2016, all attorneys must order transcript for appeal by using the
CM/ECF docket entries. The transcript order form used prior to that date will not be accepted
after July 18. For further information and instructions on ordering transcript electronically,
please visit the court's website.

5

Case: 19-5325

Document: 1

Filed: 04/04/2019

Page: 2

Appellant:

Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

Appellee:

Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

More specific instructions are printed on each form. If the filing fee for the appeal is due
because the appellant is not indigent, it must be paid to the District Court by April 18,
2019. These deadlines are important -- if the initial forms are not timely filed or the filing fee is
due but not paid, the appeal will be dismissed for want of prosecution.
If you have questions after reviewing the forms and the rules, please contact the Clerk's office
for assistance.
Sincerely yours,
s/Briston S. Mitchell
Case Manager
Direct Dial No. 513-564-7082
cc: Ms. Beth Boswell
Ms. Annie Tauer Christoff
Enclosure

6

Case: 19-5325

Document: 1

Filed: 04/04/2019

Page: 3

OFFICIAL COURT OF APPEALS CAPTION FOR 19-5325

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DERRICK KENNEDY CRUMPTON
Defendant - Appellant

7

